UNITED STATES SUPREME COURT
KENNETH DARNELL WILLIAMS
Petitioner,
V.
UNITED STATES OF AMERICA
Respondent.
AFFIRMATION OF SERVICE

I, Kenneth Darnell Williams, declare under penalty of peijury that I
have served a copy of the attached papers upon:
U.S. Attorney General’s Office
950 Pennsylvania Ave. N.W.,
Washington, DC 20530-0001
by placing such papers into a United States Postal Mail Box, under the
care of the U.S. Postal Services, that are located within the Shawangunk
Correctional Facility, P.O. Box 700, Wallkill, New York 12589, to be
forwarded to the above party.
Dated: April 23,2021
In accordance with 28 U.S.C. § 1746,1 declare under the penalty of peijury that the
above statements by me are true and correct.

Kenneth Darnell Williams, Pro se
DIN# 12A4102
Shawangunk Corr. Facility
P.O. Box 700
Wallkill, New York 12589

RECEIVED
JUN 2 - 2021

UNITED STATES SUPREME COURT
KENNETH DARNELL WILLIAMS
Petitioner,
V.
UNITED STATES OF AMERICA
Respondent.
CERTIFICATE OF COMPLIANCE
This brief complies with the requirements of S.CT Rule 33.2 because it has
been proportionally spaced using Microsoft Word 1995 word processing software.
This brief complies with the 9,000 word type-volume limitation of S.CT Rule
33.1(d) because, according to the word processing software, it contains 5,444
words.
April 23, 2021
Kenneth Darnell Williams, Pro se

RECEIVED
JUN 2 - 2021
OFFICE QF THE CLERK
SUPREME COURT. U.S.

